    DEPARTMENT OF HEALTH & HUMAN SERVICES 	                                             Office of Inspector General



                                                                                        Washington , D.C. 20201



                                              MAY 122010 



TO: 	             Marilyn Tavenner
                  Acting Administrator and Chief Operating Officer
                  Centers for Medicare & Medicaid Services


FROM:             Stuart Wright /S/
                  Deputy Inspector General
                     for Evaluation and Inspections


SUBJECT: 	 Memorandum Report: Collection Rate for Overpayments Made to
           Medicare Suppliers in South Florida, OEI-03-09-00570


This memorandum report provides additional information from our recent study
Collection Status ofMedicare Overpayments Identified by Program Safeguard
Contractors (OEI-03-08-00030), hereafter referred to as the Collections study. For that
study, we determined the collection status, as of June 2008, of Medicare overpayments
that Program Safeguard Contractors (PSC) identified and referred to claims processors
for collection in 2007.

For this memorandum report, we conducted further analysis on data obtained during the
Collections study. Previous Office of Inspector General (OIG) work has identified
durable medical equipment, prosthetics, orthotics, and supplies (DMEPOS) in
South Florida (Miami-Dade, Broward, and Palm Beach Counties) as an area vulnerable to
fraud and abuse. Therefore, we focused our additional analysis on PSC-identified
DMEPOS overpayments in South Florida.

We found that the collection rate ofPSC-identified DMEPOS overpayments in
South Florida was only 1 percent. This is compared to a national collection rate for all
claim types of 7 percent and a national DMEPOS collection rate of 3 percent as identified
in our Collections study. In addition, we found that the median overpayment was
$527,420 and that 25 percent ofthe overpayments were more than $1 million each.
While only 1 percent ofthe PSC-identified DMEPOS overpayment dollars in
South Florida was collected, another 91 percent was referred for collection to the
Department of the Treasury (Treasury) which historically does not have a high rate of
return. In addition, by December 2008, only 1 ofthe 315 suppliers associated with
South Florida DMEPOS overpayments was still active in the Medicare program; the
remaining suppliers were either revoked or inactive. The fact that these suppliers are no
longer billing the Medicare program makes overpayment collection difficult.



OEI-03-09-00S70     Collection Rate for Overpayments Made to Medicare Suppliers in South Florida
Page 2 – Marilyn Tavenner


BACKGROUND

Previous OIG Work on Overpayment Collection and Vulnerabilities in
South Florida
OIG recently completed work on the identification and the collection of PSCs’
overpayment referrals. We found that PSCs referred $835 million in overpayments to
claims processors for collection in 2007; however, 2 of 18 PSCs were responsible for
62 percent of this amount. 1 We also found that overpayments referred for collection by
PSCs in 2007 did not result in significant recoveries to the Medicare program.
Specifically, only 7 percent ($55 million of $835 million) had been collected by claims
processors as of June 2008. 2

Previous OIG work has identified South Florida as an area vulnerable to DMEPOS fraud,
waste, and abuse. For a March 2007 report, OIG conducted unannounced site visits of
DMEPOS suppliers in three South Florida counties (Miami-Dade, Broward, and Palm
Beach) to determine their compliance with selected Medicare supplier standards. 3 In that
report, we found that nearly half of DMEPOS suppliers in South Florida were not in
compliance with Medicare supplier standards. For example, these suppliers did not
maintain physical facilities, were not accessible during reasonable business hours, or did
not have posted hours of operation.

In a followup study, OIG reviewed the appeal files for suppliers who were revoked as a
result of the March 2007 study, then appealed their revocations, and received hearings. 4
We found that hearing officers reinstated the billing privileges for 91 percent of the
suppliers. However, two-thirds of suppliers whose billing privileges were reinstated
subsequently had their privileges revoked again or inactivated, and some individuals
connected to reinstated suppliers were indicted, convicted, and sentenced to jail time.

Referral of Overpayments by PSCs
PSCs have been tasked by the Centers for Medicare & Medicaid Services (CMS) to
detect and deter fraud and abuse in the Medicare program. PSCs conduct investigations;
refer cases to law enforcement; and take administrative actions, such as referring
overpayments to claims processors for collection 5 and initiating actions to deny or
suspend payments where there is reliable evidence of fraud. In the course of their

1
  OIG, Medicare Overpayments Identified by Program Safeguard Contractors, OEI-03-08-00031.
2
  OIG, Collection Status of Medicare Overpayments Identified by Program Safeguard Contractors,
OEI-03-08-00030.
3
  OIG, South Florida Suppliers’ Compliance With Medicare Standards: Results From Unannounced Visits,
OEI-03-07-00150, March 2007.
4
  OIG, South Florida Durable Medical Equipment Suppliers: Results of Appeals, OEI-03-07-00540,
October 2008.
5
  In 2007, claims processors that received overpayment referrals from PSCs were fiscal intermediaries,
carriers, or Medicare administrative contractors. These claims processors had responsibility for specific
geographic jurisdictions and claim types. Claims processors in a PSC’s jurisdiction are known as the
PSC’s affiliated contractor.

OEI-03-09-00570      Collection Rate for Overpayments Made to Medicare Suppliers in South Florida
Page 3 – Marilyn Tavenner


investigative work, PSCs review Medicare payments and may identify overpayments. 6
When PSCs identify overpayments, they are required to refer the overpayments to their
affiliated Medicare claims processor for collection. 7

In 2007, TrustSolutions, LLC, was the PSC tasked with overseeing Jurisdiction C
DMEPOS claims. Jurisdiction C encompasses Florida, as well as Alabama, Arkansas,
Colorado, Georgia, Louisiana, Mississippi, New Mexico, North Carolina, Oklahoma,
Puerto Rico, South Carolina, Tennessee, Texas, U.S. Virgin Islands, Virginia, and West
Virginia.

Collection of Overpayments by Claims Processors
In addition to paying claims, Medicare claims processors collect overpayments that are
identified by PSCs and other sources. Claims processors review the overpayment referral
information provided by PSCs and make a final determination as to the dollar amount to
be collected. 8 This amount may differ from the overpayment amount referred by the
PSC. Outcomes of law enforcement investigations or provider appeals may also change
the amount that a provider must repay on an overpayment.

Claims processors may collect overpayments by withholding a provider’s future
Medicare payments, through a provider’s direct repayment of the full overpayment, or
through a provider repaying the overpayment under an extended repayment plan. With a
few exceptions, claims processors must refer debt that is 180 days (6 months) delinquent
to Treasury’s cross-servicing program for collection. 9 The cross-servicing program
receives referrals of nontax debt from all Federal agencies. However, overpayments
referred to Treasury are not likely to be fully collected because the cross-servicing
program does not have a high rate of return. For each fiscal year between 2003 and 2007,
the program never collected more than 2 percent of the debt. 10

During 2007 and 2008, CIGNA Government Services was the claims processor that
serviced Jurisdiction C DMEPOS claims and was tasked with collecting overpayments
identified by TrustSolutions, LLC.

Supplier Status
CMS contracts with the National Supplier Clearinghouse (NSC) to manage the
enrollment of DMEPOS suppliers in the Medicare program. Before granting billing

6
  CMS entered into contracts with PSCs to perform such work pursuant to the authority granted under the
Medicare Integrity Program, Social Security Act, § 1893, 42 U.S.C. § 1395ddd. CMS is in the process of
replacing PSCs with Zone Program Integrity Contractors (ZPIC). The first ZPIC contracts were awarded in
September 2008, after our data collection timeframe.
7
  CMS, Medicare Program Integrity Manual, Pub. No. 100-08, ch. 3, § 3.8.
8
  CMS, Medicare Financial Management Manual, Pub. No. 100-06, ch. 4, §§ 10 and 80.2.
9
  Ibid., § 70.5.
10
   Treasury, Fiscal Year 2007 Report to the Congress: U.S. Government Receivables and Debt Collection
Activities of Federal Agencies, May 2008, p. 13. Accessed at http://fms.treas.gov/news/reports/debt07.pdf
on December 31, 2009.

OEI-03-09-00570      Collection Rate for Overpayments Made to Medicare Suppliers in South Florida
Page 4 – Marilyn Tavenner


privileges, NSC conducts an unannounced site visit to determine whether suppliers meet
all Medicare supplier standards. NSC may also conduct unannounced site visits at any
time. 11 If after a site visit, NSC finds that a supplier no longer meets the supplier
standards, NSC will revoke the supplier’s billing privileges. 12, 13 Suppliers may also
have their billing privileges become inactive. Suppliers may become inactive for a
number of reasons, such as voluntary inactivation or failure to submit claims for four
consecutive quarters. NSC maintains a database of DMEPOS suppliers which contains
suppliers’ address information and indicates whether suppliers’ billing privileges are
active, inactive, or revoked.

Supplier Accreditation
As an additional safeguard to the supplier enrollment process, one of the Medicare
supplier standards that suppliers must now meet is accreditation. Section 1834(a)(20) of
the Social Security Act, as amended by section 154(b)(1)(A) of the Medicare
Improvements for Patients and Providers Act of 2008, P.L. 110-275, required DMEPOS
suppliers to meet quality standards for accreditation by September 30, 2009. However,
on March 23, 2010, the President signed P.L. 111-148, which postpones until
January 1, 2011, the effective date of the accreditation requirement for pharmacies that
act as suppliers of Medicare items and services. At that time, only pharmacies that meet
each of the requirements stipulated in section 1834(a)(20)(G)(ii) of the Social Security
Act will continue to be exempted from accreditation.

CMS has approved 10 national accreditation organizations to accredit DMEPOS
suppliers as meeting the new quality standards. There are quality standards that need to
be met by all suppliers, e.g., financial management and product safety, and standards that
apply to only certain types of suppliers, such as oxygen equipment suppliers.

Surety Bonds for DMEPOS Suppliers
The Balanced Budget Act of 1997, P.L. 105-33, mandated that certain DMEPOS
suppliers be subject to a surety bond requirement, and CMS published a final rule on this
requirement on January 2, 2009. A DMEPOS surety bond is a bond issued by an entity
guaranteeing that a DMEPOS supplier will fulfill its obligation to the Medicare program.
If the obligation is not met, Medicare will recover its losses via the surety bond, up to the
bond amount.

As of October 2009, 14 DMEPOS suppliers, other than those exempted from the
requirement, were required to obtain and submit a surety bond in the amount of at least


11
   CMS, Medicare Program Integrity Manual, Pub. No. 100-08, ch. 10, § 22.
12
   42 CFR § 424.517.
13
   Twenty-six supplier standards are outlined in 42 CFR § 424.57(c) and include, for example, maintaining
a physical facility and being accessible during reasonable business hours.
14
   DMEPOS suppliers seeking enrollment or with a change of ownership were subject to the surety bond
requirement beginning May 4, 2009. Existing DMEPOS suppliers were subject to the surety bond
requirement beginning October 2, 2009. 42 CFR § 424.57(d)(1).

OEI-03-09-00570      Collection Rate for Overpayments Made to Medicare Suppliers in South Florida
Page 5 – Marilyn Tavenner


$50,000 for each practice location. 15, 16 The bond must guarantee that the surety will pay
CMS the amount of any unpaid claim, plus accrued interest, for which the DMEPOS
supplier is responsible, up to the surety’s maximum obligation. An unpaid claim is
defined as an overpayment made by the Medicare program to the DMEPOS supplier for
which the DMEPOS supplier is responsible, plus accrued interest that is effective 90 days
after the date of the notice sent to the DMEPOS supplier of the overpayment. 17
Therefore, the overpayments identified in this memorandum report would fit the
definition of an unpaid claim.

METHODOLOGY

We reviewed the Medicare overpayments data that we collected from PSCs and claims
processors for our Collections study. 18 These data contained identifying information
about each overpayment that PSCs referred to claims processors in 2007. In addition, the
data contained information on the claims processors’ collection of those overpayments
through June 2008. Because we collected information through June 2008, claims
processors had 6 to 18 months to collect the overpayments depending on when they were
referred in 2007.

From the Medicare overpayments data, we identified DMEPOS overpayments that were
referred from TrustSolutions, LLC, the PSC tasked with overseeing Jurisdiction C
DMEPOS claims. Then, to determine DMEPOS overpayments associated specifically
with South Florida, we matched suppliers’ identification numbers from the overpayment
data with supplier identification numbers from the NSC database. This match provided
an address for the suppliers associated with each Jurisdiction C overpayment, as well as
their status in the Medicare program as of December 2008. We used a national ZIP Code
database to determine which suppliers were located in the three South Florida counties of
Miami-Dade, Broward, and Palm Beach. From these matches, we identified
315 DMEPOS overpayments for suppliers located in these 3 South Florida counties.
DMEPOS overpayments associated with suppliers located in these counties are hereafter
referred to as South Florida DMEPOS overpayments.

To determine the collection rate of PSC-identified South Florida DMEPOS
overpayments, we divided the total amount collected by the claims processor for
South Florida overpayments, by the total amount referred by the PSC for South Florida
overpayments. To determine the collection status of the overpayments, we summarized

15
   As described in 42 CFR § 424.57(d)(15), under certain specified conditions, the following DMEPOS
suppliers are exempt from the surety bond requirement: Government-operated DMEPOS suppliers,
State-licensed orthotic and prosthetic personnel in private practice, physicians and nonphysician
practitioners, and physical and occupational therapists in private practice.
16
   The bond amount will be raised by an additional $50,000 for each final adverse action that has been
imposed against the supplier within the previous 10 years. 42 CFR § 424.57(d)(3)(ii).
17
   42 CFR § 424.57(a).
18
   OIG, Collection Status of Medicare Overpayments Identified by Program Safeguard Contractors,
OEI-03-08-00030.

OEI-03-09-00570      Collection Rate for Overpayments Made to Medicare Suppliers in South Florida
Page 6 – Marilyn Tavenner


the collection information that the claims processor provided. There were four
overpayments for which the PSC provided referral information, but the claims processor
could not provide collection data or did not provide information necessary for OIG to
determine the collection status.

To determine the number of South Florida suppliers that were active, inactive, or revoked
from the Medicare program, we examined the supplier status from the December 2008
NSC database.

We also determined the additional amount that could have been collected had a
$50,000 surety bond requirement been in place. For overpayment amounts of less than
$50,000, we used the amount identified for recovery but not collected as the additional
amount that could have been collected had the surety bond requirement been in place.
For overpayment amounts of $50,000 or more, we used $50,000 as the additional amount
that could have been collected had the surety bond requirement been in place. We then
aggregated the amounts for all overpayments.

This study was conducted in accordance with the Quality Standards for Inspections
approved by the Council of the Inspectors General on Integrity and Efficiency.

RESULTS

The Collection Rate for DMEPOS Overpayments in South Florida Was Only
1 Percent
We found that the collection rate for South Florida DMEPOS overpayments was only
1 percent. The total amount referred for collection by the PSC in 2007 for South Florida
DMEPOS overpayments was $246,009,437. The total amount collected, as of June 2008,
was $2,178,223. This is compared to a national collection rate for all claim types of
7 percent and a national DMEPOS collection rate of 3 percent, as identified in our
Collections study.

The dollar amount of the South Florida overpayments referred by the PSC ranged from
$66 to $6.6 million. The median overpayment totaled $527,420. As shown in Table 1,
80 of the 315 overpayments (25 percent) were more than $1 million each; just
14 overpayments totaled less than $50,000 each. Table 1 shows the number and dollar
range of South Florida overpayments referred by the PSC in 2007, along with the amount
collected by the claims processor through June 2008.




OEI-03-09-00570   Collection Rate for Overpayments Made to Medicare Suppliers in South Florida
Page 7 – Marilyn Tavenner


Table 1: Range of South Florida Overpayments Referred by the PSC in 2007 and
Collected by the Claims Processor through June 2008
Dollar Range of
                         Number of                        Percentage of            Dollar Amount      Dollar Amount
Overpayments Referred
                      Overpayments                       Overpayments1                   Referred          Collected
by PSC

 Less than $50,000                                14                      4%               $355,547         $93,726

 $50,000–$99,999                                  10                      3%               $829,917         $23,664

 $100,000–$499,999                              123                     39%            $37,713,461         $222,932

 $500,000–$999,999                                88                    28%            $61,983,447       $1,299,936

 $1 million or more                               80                    25%           $145,127,065         $537,965

     Total                                      315                    100%           $246,009,437       $2,178,223
Source: OIG analysis of PSC-identified DMEPOS overpayments in South Florida.
1
 Percentages in this column add up to 99 percent rather than 100 percent because of rounding.


Had a $50,000 surety bond requirement been in effect at the time of our study, Medicare
could have collected an additional $15 million (6 percent) on the South Florida DMEPOS
overpayments. Just 14 of the overpayments would have been totally covered by the
surety bond. The additional $15 million would bring the total amount collected, as of
June 2008, to just $17 million out of the $246 million referred for collection.

Most South Florida DMEPOS Overpayment Dollars Were Eventually Forwarded to
Treasury
Ninety-one percent of the PSC-identified overpayment dollars ($224 million) was
eventually forwarded to Treasury’s cross-servicing program for collection. Because this
program has a low rate of return, these overpayments will not likely be recovered by the
Medicare program.

As of June 2008, the remaining 8 percent of PSC-identified overpayments dollars
($20 million) were (1) no longer owed by providers because the overpayment amounts
were reduced by the claims processor, (2) not likely to be collected because of provider
bankruptcy, (3) still being collected (e.g., provider was on an extended repayment plan),
(4) in appeal, or (5) overpayments for which the claims processor could not provide data
or did not provide information necessary for OIG to determine the collection status.

Only One of the Suppliers Associated With South Florida DMEPOS Overpayment
Referrals Was Still Active in the Medicare Program as of December 2008
Only 1 of the 315 South Florida suppliers associated with DMEPOS overpayments was
still active in the Medicare program as of December 2008. This one supplier owed
$296,367 and was on an extended repayment plan. Of the remaining 314 suppliers,
282 suppliers were revoked and 32 suppliers were inactive. The fact that these suppliers
are no longer billing the Medicare program makes overpayment collection difficult.


OEI-03-09-00570        Collection Rate for Overpayments Made to Medicare Suppliers in South Florida
Page 8 – Marilyn Tavenner


CONCLUSION

This memorandum report provides information on the collection rate and status of
PSC-identified DMEPOS overpayments associated with South Florida. We found that
the collection rate of DMEPOS overpayments in South Florida was 1 percent or
$2 million of the $246 million in overpayments referred for collection. Moreover, we
found that even if the surety bond had been in place at the time of our study, Medicare
would have collected just an additional $15 million or 6 percent of South Florida
DMEPOS overpayment dollars. We also found that the vast majority of DMEPOS
overpayment dollars were eventually referred to Treasury, which historically does not
have a high rate of return. In addition, as of December 2008, only one supplier was still
active, making future overpayment collection difficult since the suppliers are no longer
billing Medicare.

Given that South Florida DMEPOS overpayments identified by the PSC resulted in low
returns to the Medicare program, overpayment identification and collection may not be
the most effective program integrity tool for DMEPOS claims especially in South Florida
and other high-fraud areas. Ensuring that claims are legitimate and appropriate prior to
payment would eliminate the need to expend resources for postpayment collection efforts
that are not likely to yield high returns.

This report is being issued directly in final form because it contains no recommendations.
If you have comments or questions about this report, please provide them within 60 days.
Please refer to report number OEI-03-09-00570 in all correspondence.




OEI-03-09-00570   Collection Rate for Overpayments Made to Medicare Suppliers in South Florida
